HHS/OIG-Audit--"Medicare Prospective Payment System Edit for Incorrect Hospital Coding of Patient (Discharge) Status, (A-06-91-00061)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Prospective Payment System Edit for Incorrect Hospital Coding
of Patient (Discharge) Status," (A-06-91-00061)
August 10, 1993
Complete
Text of Report is available in PDF format (897 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of the effectiveness of the prepayment
edit used to detect incorrect patient status codes in the Medicare prospective
payment system (PPS) when patients are transferred to another hospital. The objective
of our review was to determine whether this claims processing edit would prevent
overpayments for all incorrect usages of the patient status code. We determined
that while the edit detects most overpayment situations, it does not detect transfers
that are improperly coded as transfers to hospitals, or distinct parts of hospitals,
which are not participating in PPS. We estimate that annual cost savings of $8.1
million are available if the Health Care Financing Administration revises the edit
to also detect these incorrectly coded transfers.